Case: 20-5617

Document: 7-2

Filed: 11/03/2020

No. 20-5617

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

RONNIE RAY OGLE,
Petitioner-Appellant,
v.
MIKE PARRIS, Warden,
Respondent-Appellee.

(2 of 4)

Page: 1

)
)
)
)
)
)
)
)
)

Nov 03, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: LARSEN, Circuit Judge.

Ronnie Ray Ogle, a pro se Tennessee prisoner, appeals from the district court’s judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. Ogle has filed an
application for a certificate of appealability (“COA”).
In 2000, Ogle pleaded guilty to first-degree premeditated murder, felony murder, and
aggravated robbery in Tennessee state court. The trial court imposed a life sentence. Ogle did not
pursue a direct appeal of his convictions or sentence.
In May 2018, Ogle filed a pro se pleading, which the trial court construed as a petition for
postconviction relief. That court denied the petition as untimely, and the Tennessee Court of
Criminal Appeals affirmed the trial court’s decision. Ogle v. State, Nos. E2018-01520-CCA-R3PC, E2018-01521-CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019 WL 2355033, at *4 (Tenn.
Crim. App. June 4, 2019). The Tennessee Supreme Court declined discretionary review.
In November 2019, Ogle filed his § 2254 petition in the district court. The district court
dismissed the petition as untimely and denied a COA. Ogle v. Parris, No. 3:20-CV-40-PLR-DCP,
2020 WL 2616664, at *2-4 (E.D. Tenn. May 22, 2020).
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. 28 U.S.C. § 2253(c)(2). A petitioner satisfies this standard by demonstrating

Case: 20-5617

Document: 7-2

Filed: 11/03/2020

Page: 2

No. 20-5617
-2that reasonable jurists “could disagree with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to deserve encouragement
to proceed further.” Buck v. Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537
U.S. 322, 327 (2003)); see also Slack v. McDaniel, 529 U.S. 473, 484 (2000). When a claim is
denied on procedural grounds, the petitioner must show “that jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.” Slack, 529 U.S. at 484.
Reasonable jurists could not disagree with the district court’s conclusion that Ogle’s § 2254
petition was untimely. A one-year limitations period applies to federal habeas corpus petitions
filed by state prisoners. 28 U.S.C. § 2244(d)(1); Holbrook v. Curtin, 833 F.3d 612, 615 (6th Cir.
2016). This limitations period runs from the latest of four dates. 28 USC § 2244(d)(l)(A)-(D).
The relevant date for Ogle’s petition is the date on which his criminal “judgment became final by
the conclusion of direct review” of his convictions and sentence “or the expiration of the time for
seeking such review.” See § 2244(d)(1)(A); Holbrook, 833 F.3d at 615. This limitations period
is tolled during the time in which “a properly filed application for State postconviction or other
collateral review with respect to the pertinent judgment or claim is pending.” See § 2244(d)(2).
Ogle has not made a substantial showing that his § 2254 petition was timely filed. It is
undisputed that Ogle’s judgment of convictions and sentence was entered on May 1, 2000. He
had thirty day under Tennessee law to appeal that judgment. Tenn. R. App. 4(a). Since he did not
appeal, his convictions became “final” on May 31,2000, and the § 2244(d)(1) statute of limitations
began to run on June 1, 2000. See Fed. R. Civ. P. 6(a)(1). With no applicable period of tolling,
the statutory period for Ogle to timely file a § 2254 petition expired on June 1, 2001. Although
Ogle subsequently filed his state postconviction petition in 2017, that petition did not toll the
statute of limitations because the applicable one-year period under § 2244(d)(1) already had
expired by that time. SeeParkerv. Renico, 105F. App’x 16, 18 (6th Cir. 2004) (citing McClendon
v. Sherman, 329 F.3d 490, 494 (6th Cir. 2003)). Nor did the state petition revive the limitations
period. See Eberle v. Warden, MansfieldCorr. Inst., 532 F. App’x 605, 609 (6th Cir. 2013) (citing
Vroman v. Brigano, 346 F.3d 598, 602 (6th Cir. 2003)). Despite the expiration of this limitations

(3 of 4)

Case: 20-5617

Document: 7-2

Filed: 11/03/2020

Page: 3

No. 20-5617
-3period, Ogle argues that the statute of limitations should run from the date an amended state rule,
Tennessee Rule of Criminal Procedure 36.1, went into effect. However, he cites to no authority
establishing that an amended state procedural rule would create a new limitations period. Further,
Ogle asserts, in a conclusory manner, that his counsel filed a state habeas petition in 1997. Even
if true, this action would have predated his convictions and would not affect the limitations period.
Ogle did not file his § 2254 petition until November 2019, over eighteen years after the applicable
limitations period ended.
Although he did not timely file his § 2254 petition, Ogle argues that the district court should
have equitably tolled the applicable limitations period. The § 2244(d)(1) statute of limitations is
not a jurisdictional bar and, therefore, is subject to equitable tolling where a habeas petitioner
“shows ‘(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way’ and prevented timely filing.” Holland v. Florida, 560 U.S. 631,
649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S. 408,418 (2005)). This court applies equitable
tolling sparingly, and Ogle bears the burden of proving that he is entitled to it. See Robertson v.
Simpson, 624 F.3d 781, 784 (6th Cir. 2010).
Ogle has not made a substantial showing that he met this burden. In a conclusory manner,
he asserts that his affidavit of arrest contained false statements, but he does not provide any basis
for this assertion. Nor does he explain when he discovered these allegedly false statements or how
he was diligent in pursuing his rights.

Further, Ogle does not identify any extraordinary

circumstance which prevented him from pursuing his claims in a timely manner. To the extent
that he relies on his pro se status or lack of knowledge of the law, these factors are insufficient to
constitute an extraordinary circumstance and to excuse an untimely filing. See Keeling v. Warden,
Lebanon Corr. Inst., 673 F.3d 452, 464 (6th Cir. 2012).
Accordingly, Ogle’s COA application is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(4 of 4)

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT KNOXVILLE
RONNIE RAY OGLE,
Petitioner,
v.

MICHAEL PARRIS,
Respondent.

)
)
)
)
)
)
)
)
)

No.:

3:20-CV-40-PLR-DCP

MEMORANDUM OPINION
Petitioner Ronnie Ray Ogle is a Tennessee inmate proceeding pro se on a federal habeas
petition pursuant to 28 U.S.C. § 2254, in which he seeks to challenge the legality of his
confinement under judgments of conviction for felony murder, aggravated robbery, and firstdegree premeditated murder. Having considered the submissions of the parties, the State-court
record, and the law applicable to Petitioner’s claims, the Court finds that the petition should be
denied.
I.

FACTUAL AND PROCEDURAL HISTORY
On May 1, 2000, Petitioner, along with Teddy Ogle and Terry Ogle, pleaded guilty to

felony murder, aggravated robbery, and first-degree premeditated murder. Ogle v. State, No.
E2018-01520-CCA-R3-PC, E2018-01521-CCA-R3-PC, E2018-01522-CCA-R3-PC, 2019 WL
2355033, at *1 (Term. Crim. App. June 4, 2019), perm. app. denied (Tenn. Sept. 18, 2019).
Petitioner received an effective sentence of life imprisonment. Id.
On May 31, 2018, Petitioner filed in the trial court a pro se pleading styled “Petition for
Writ of Habeas Corpus and/or Motion for Correction of Illegal Sentence and Amendment Motion
for Relief from Judgment” [Doc. 8-1 p. 34-49]. The trial court construed the pleading as a petition
for post-conviction relief and dismissed the petition as untimely [Id. at 50-51 ].

Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 1 of 7 PagelD#:200

On appeal, the Tennessee Court of Criminal Appeals (“TCCA”) affirmed the judgment of
the trial court. Ogle, 2019 WL 2355033, at *1. The court initially observed that Petitioner’s brief
was inadequate for failing to support the raised issues with argument, and because the issues
presented did not correspond with the issues raised in the argument section of the brief. Id. at *3.
Nonetheless, the court considered Petitioner’s claim that the trial court erred by converting
Petitioner’s pleading to a petition for post-conviction relief. Id. at *3-4. The TCCA concluded
that the trial court properly construed the pleading as a post-conviction petition, because Petitioner
had not stated a colorable claim for relief under Rule 36.1 of the Tennessee Rules of Criminal
Procedure, or under State habeas law. Id.
On or about November 15, 2019, Petitioner filed the instant petition raising the following
claims, as paraphrased by the Court:
I.

The TCCA erred when it construed his trial court pleading as a petition for
post-conviction relief rather than a motion to correct an illegal sentence
under Tennessee Rule of Criminal Procedure 36.1.

II.

The trial court deprived Petitioner of his right to due process when it failed
to make findings of fact and conclusions of law in denying Petitioner relief.

III.

The trial court erred in refusing to recuse itself.

IV.

Petitioner’s guilty plea was not knowing and voluntary.

V.

Trial counsel was ineffective in failing to call defense witnesses.

VI.

The trial court erred by construing Petitioner’s pleading as a petition for .
post-conviction relief and dismissing the petition without providing
Petitioner an opportunity to amend.

VII.

The appellate court and trial court erred in their construction of the petition.

VIII.

An illegal arrest and extradition led to an illegal sentence.

IX.

Petitioner’s guilty plea was illegal because it was based on erroneous
information and an illegal statement.

2
Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 2 of 7 PagelD #: 201

X.

The trial court erred in failing to apply mitigating factors in imposing
Petitioner’s sentence.

XI.

Trial counsel rendered ineffective assistance in failing to utilize potential
mitigation evidence from a mitigation specialist.

XII.

Petitioner was denied a fair and impartial sentencing proceeding.

[Doc. 1]. The Court ordered Respondent to respond to the petition, and Respondent did so by
filing its answer on or about April 20, 2020 [Doc. 11]. Petitioner did not file a reply, and the time
to do so has passed [See Doc. 7]. This matter is ripe for review.
II.

DISCUSSION
A.

Timeliness
1.

Standard

The instant petition for writ of habeas corpus is subject to the statute of limitations of the
Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”). Lindh v. Murphy, 521 U.S.
320, 337 (1997). Whether the instant petition is timely, turns on the statute’s limitation period,
which provides:
(d)(1) A 1-year period of limitation shall apply to an application for a writ of habeas
corpus by a person in custody pursuant to the judgment of a State court. The
limitation period shall run from the latest of (A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or the laws of the
United States is removed, if the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable
to cases on collateral review; or

3
Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 3 of 7 PagelD#:202

(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
28 U.S. C. § 2244(d)(1). The federal limitations period is tolled while a “properly filed application
for State post-conviction or other collateral review” is pending. See 28 U.S.C. § 2244(d)(2). In
“rare and exceptional circumstances,” the limitations period may be equitably tolled. Felder v.
Johnson, 204 F.3d 168, 170-71 (5th Cir. 2000) (citations omitted).
2.

Analysis

Petitioner’s convictions became “final” on May 31, 2000, when the time expired for him
to seek a direct appeal from his May 1, 2000, guilty plea [Doc. 8-1 p. 21-24]. See Term. R. App.
4(a) (requiring notice of appeal to be filed within 30 days after entry of judgment appealed from);
State v. Green, 106 S.W.3d 646, 650 (Tenn. 2003) (holding judgment of conviction entered upon
guilty plea becomes final thirty days after acceptance of plea and imposition of sentence).
Therefore, the statute of limitations began running the following day, June 1, 2000, and expired
on June 1, 2001.1 Petitioner did not file his federal habeas petition until on or about November
15, 2019, over eighteen years after the expiration of the federal statute of limitations. Therefore,
the petition is untimely under 28 U.S.C. § 2244(d)(1)(A).
Petitioner argues that the statute of limitations commenced on July 1, 2016, when Rule
36.1 of the Tennessee Rules of Criminal Procedure was amended [Doc. 1 p. 27-28]. However,
amendment of a state rule of procedure does not satisfy any of the criteria in 28 U.S.C. §

i

The Court notes that an amended judgment was entered in Petitioner’s case on July 10,
2000 [Doc. 8-1 p. 24]. Because this did not increase Petitioner’s sentence, however, the Court
determines that it is not a new judgment that restarts the clock. See, e.g., Freeman v. Wainwright,
2020 WL 2394242, at *3 (holding “final judgment” in criminal case is the sentence, and
modification without resentencing is not a “final judgment” that restarts § 2244(d)’s clock).
However, even if this later date were used to start the statute of limitations clock, the federal
limitations period still would have expired in July 2001.
4
Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 4 of 7 PagelD#:203

2244(d)(l)(B)-(D), and therefore, revision of the rule did not reset the statute of limitations clock.
Additionally, because Petitioner’s State-court pleading was not filed until after the statute of
limitations had expired, neither does it serve to toll the limitations period. See Vroman v. Brigano,
346 F.3d 598, 602 (6th Cir. 2003) (holding that while a properly filed application for state post­
conviction or other collateral relief may toll the statute of limitations, it “does not... ‘revive’ the
limitations period (i.e., restart the clock at zero); it can only serve to pause a clock that has not yet
fully run”).
Accordingly, the instant petition was not timely filed, and the Court can consider it only if
Petitioner establishes an entitlement to equitable tolling of the limitation period. See Allen v.
Yukins, 366 F.3d 396, 401 (6th Cir. 2004) (finding it is the petitioner’s burden to demonstrate
equitable tolling applies). To establish an entitlement to equitable tolling, a petitioner must
demonstrate “(1) that he has been pursuing his rights diligently, and (2) that some extraordinary
circumstance stood in his way” to prevent timely filing. Lawrence v. Florida, 549 U.S. 327, 336
(2007) (citing Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). It is an exception that should be
granted “sparingly.” Keeling v. Warden, 673 F.3d 452, 462 (6th Cir. 2012).
Petitioner asserts that he is entitled to equitable tolling of the limitations period because his
attorney filed a habeas petition in State court in 1997 that was never heard by the trial court [Doc.
1 p. 28-32]. However, he does not explain why he then waited nearly twenty years before filing
anything else in State court. Therefore, he has not shown a diligent pursuit of his rights.
Moreover, he cannot show that any extraordinary circumstance stood in his way and
prevented a timely filing of the federal habeas petition. Petitioner accuses the State of concealing
his illegal seizure, alleging that his affidavit of arrest contained false and reckless statements [Id.
at 30-31]. However, he does not identify these allegedly false statements, nor does he explain

5
Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 5 of 7 PagelD#:204

when he learned about the statements. Additionally, his claim that the State concealed evidence
is a conclusory allegation that fails to constitute an extraordinary circumstance that prevented the
timely filing of his habeas petition. See, e.g., O'Malley v. United States, 285 F.2d 733, 735 (6th
Cir. 1961) (“Conclusions, not substantiated by allegations of fact with some probability of verity,
are not sufficient to warrant a hearing” or relief).
Finally, Petitioner claims that his mental incapacity warrants equitable tolling [Doc. 1 p.
31-32]. However, Petitioner has made no showing that he is mentally incompetent, and he has not
provided any causal connection between his alleged incompetence and the ability to file a federal
habeas petition. Therefore, Petitioner is not entitled to equitable tolling on the basis of alleged
mental incompetence. See, e.g., Powell v. Morrow, No. 1:10-cv-l81, 2011 WL 294295, at *4-5
(E.D. Tenn. Jan. 27, 2011) (finding petitioner not entitled to equitable tolling when he failed to
demonstrate mental incapacity and connection between alleged incapacity and his ability to pursue
federal habeas relief).
Accordingly, the Court finds that equitable tolling is not appropriate in this case, and the
instant petition will be dismissed as untimely.
B.

State-Law Issues

The Court additionally finds that the claims Petitioner raises in Claims I-III and VI-VII are
based on the State court’s application of State law. The Supreme Court has “stated many times
that federal habeas corpus relief does not lie for errors of state law.” Estelle v. McGuire, 502 U.S.
62, 67-68 (1991) (internal quotation omitted).

Therefore, Petitioner’s claims regarding the

construction of his petition and the procedures used by the trial court to adjudicate the petition
cannot form the basis of federal habeas relief. Accordingly, Claims I-III and VI-VII are otherwise
properly dismissed as non-cognizable.

6
Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 6 of 7 PagelD#:205

III.

CERTIFICATE OF APPEALABILITY
Pursuant to Rule 11(a) of the Rules Governing § 2254 Cases, this Court must issue or deny

a certificate of appealability (“COA”) upon the entry of a final order adverse to the petitioner.
Petitioner must obtain a COA before appealing this Court’s decision denying federal habeas relief.
See 28 U.S.C. § 2253(c)(1). Because the instant petition is rejected on procedural grounds,
Petitioner must demonstrate “that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling” in order for a COA to
issue. Slack v. McDaniel, 529 U.S. 473, 484 (2000). Applying this standard, the Court concludes
that a COA should be denied.
IV.

CONCLUSION
For the reasons set forth above, the instant petition will be DENIED, and this action will

be DISMISSED with prejudice. A certificate of appealability will be DENIED.
Further, the Court will CERTIFY that any appeal from this action would not be taken in
good faith and would be totally frivolous. Fed. R. App. P. 24.
AN APPROPRIATE JUDGMENT ORDER WILL ENTER.

ITED STATES DISTRICT JUDGE

7
Case 3:20-cv-00040-PLR-DCP Document 12 Filed 05/22/20 Page 7 of 7 PagelD#:206

